Pension Benefit Guaranty Corporation

      Office of Inspector General
         Evaluation Report




     Penetration Testing 2001 -
             An Update




            August 28, 2001
                                    2001-18/23148-2
                                         Penetration Testing 2001 – An Update

                                          Evaluation Report 2001-18/23148-2


                                                        TABLE OF CONTENTS

                                                                                                                                     Page


EXECUTIVE SUMMARY ...................................................................................................                 iii 


OVERVIEW.......................................................................................................................       1         


SCOPE ............................................................................................................................    1         


METHODOLOGY .............................................................................................................             2 


     Phase I: External Network Penetration ......................................................................                     2


     Phase II: Internal Network Penetration .......................................................................                   3


WORK STANDARDS AND LIMITATIONS............................................................................                            3


PENETRATION TESTING RESULTS ..................................................................................                        4


     1. Internet Security ..................................................................................................          4


     2. Dial-In Security ...................................................................................................          4


     3. Network Security ..................................................................................................           4


     4. Physical Security ..................................................................................................          5


     5. Social Engineering ................................................................................................           6


ASSESSMENT OF STRENGTHS .......................................................................................                       6


ASSESSMENT OF WEAKNESSES ....................................................................................                         7


RECOMMENDATIONS .....................................................................................................                 7 




AGENCY COMMENTS ......................................................................................................                TAB 1 





                                                            Abbreviations


LAN                                Local Area Network         

NDS                                Novell Directory Services

Novell                             Novell Network Operating System

NT                                 Microsoft Windows NT Operating System

OIG                                Office of Inspector General     

PBGC                               Pension Benefit Guaranty Corporation
UNIX                               UNIX Operating System




                                                                     -i-
                              Penetration Testing 2001 – An Update
                              Evaluation Report 2001-18/23148-2

                                       EXECUTIVE SUMMARY

         In January 2001, the Office of Inspector General (OIG) conducted a penetration test of
the Pension Benefit Guaranty Corporation’s (PBGC) network security. This was follow-up testing
of computer security we conducted in 1999. In October 1999, the OIG issued a report of the
results of penetration testing activities on components of PBGC’s information technology. We
found significant computer security vulnerabilities, and notified PBGC we would retest the
identified weaknesses.

         The OIG engaged the PricewaterhouseCoopers Technology Security group (hereafter, the
“penetration team”) to focus on gaining access to PBGC systems and resources and escalating
privileges on those systems. Throughout the testing, our penetration team attempted to gain the
highest level of access possible (administrator) on PBGC systems without performing malicious
actions or interrupting existing PBGC services.

        Our penetration testing found that PBGC significantly improved it security over network
resources to provide protection from malicious external and insider attacks. Our team did find
some areas in which PBGC should improve its security that are similar to our 1999 findings.

9	 We found that not all PBGC accounts have strong passwords. The team was able to obtain
   user-level access on PBGC’s main Windows NT domain and on PBGC Novell using accounts
   with either no password or with the password set to the account name. The team was also
   able to login with administrator-level privileges to a contractor-operated Novell tree within the
   PBGC network using an account without a password. However, the team could not exploit the
   access to this tree to gain entry to the main PBGC Novell Directory Service.

9	 We also found that PBGC employees are allowing unauthorized personnel access to PBGC
   office areas.

                                       Recommendations

We recommend that PBGC develop a plan of action to prioritize and address the following
strategic recommendations:

           Assign strong passwords to user level accounts with null passwords or passwords set
           to the account name in the Windows NT and Novell environment. (IRMD-125)

           Assign strong passwords to administrator level accounts with null passwords on the
           Contractor operated Novell Directory Service tree. (IRMD-126)

           Develop and publicize guidance for employees to monitor and report unauthorized
           personnel in PBGC office areas. (IRMD-127)


        We provided PBGC the opportunity to comment on this report. Those comments were
generally favorable, and are attached at TAB 1.




                                                -ii-
                             Penetration Testing 2001 – An Update

                              Evaluation Report 2001-18/23148-2

OVERVIEW

       In October 1999, the OIG issued a report of the results of penetration testing activities on
components of PBGC’s information technology systems (see Penetration Testing 1999, OIG Report
No. 2000-3/23137-3). We found significant computer security vulnerabilities, including
unauthorized access to PBGC mission-critical systems from remote locations and inside PBGC.
For example, during our testing, we obtained the highest security privileges and were able to:
    •   Create, delete, and modify data, including financial and plan data;

    •   Access, read, and modify information on plan participants; and

    •   Deny service on critical PBGC network systems.

We were able to achieve this level of access without being detected or reported. In that report, we
notified PBGC we would retest the identified weaknesses.

         In January 2001, the Office of Inspector General (OIG) conducted a follow-up penetration
test of the Pension Benefit Guaranty Corporation’s (PBGC) network security. The OIG engaged
the PricewaterhouseCoopers Technology Security group (hereafter, the “penetration team”) to
focus on gaining access to PBGC systems and resources. Throughout the testing, our penetration
team attempted to gain the highest level of access possible (administrator) on PBGC systems
without performing malicious actions or interrupting PBGC services.

        The penetration team performed the following activities:

    ♦	 Internal and external penetration tests, including limited social engineering and physical
       security penetration attempts on PBGC information resources.

    ♦	 Tests of the effectiveness of the corrective actions taken by PBGC in response to the
       findings of the testing performed by the penetration team in 1999.

    ♦	 Identification of new vulnerabilities within the PBGC information technology
       environment.

       This testing continues the OIG’s reviews over the past five years that focus on controls
and security issues protecting PBGC information technology.


SCOPE

        The scope of the penetration testing included:

    ♦	 Attempting internal and external penetration of PBGC systems, including the PBGC
       firewall, web server, and router from the Internet, to determine whether infrastructure
       and data processing devices are at risk from unauthorized external intrusion;

    ♦	 Attempting internal and external penetration through telephone modems and dial-in
       remote access systems located within PBGC to determine if the network was at risk of
       unauthorized external intrusion though telephone access; and




                                                -1-

    ♦	 Attempting internal penetration as an untrusted insider with physical access to the
       network infrastructure, and through “social engineering,” to determine if PBGC systems
       were vulnerable to misuse by malicious insiders.


        The penetration team used PricewaterhouseCoopers’ proprietary methodologies and
common hacker software tools to identify network vulnerabilities. PBGC information systems
security practices were compared against controls observed in industry to identify weaknesses
and develop recommendations for improvements.

        The findings in this report are based on data collected at the time of testing at PBGC.
They are a brief “snapshot in time” of our testing and do not reflect any changes made to the
system after the data collection activity.


METHODOLOGY

        Our methodology for penetration testing focused on gaining access to PBGC systems and
resources, and escalating privileges on those systems. Throughout the testing, we attempted to
gain the highest level of access possible (administrator) on PBGC systems without performing
malicious actions or interrupting existing PBGC services or operations. Our goal was to gain
administrator access on PBGC financial systems from both external and internal paths.

Phase I: External Network Penetration

♦   Internet penetration testing

    This process tested the configuration, implementation, and security practices of PBGC's
    Internet connectivity and access controls, and attempted to identify and exploit security
    vulnerabilities in order to gain unauthorized access into PBGC networks or devices. The
    penetration team also retested the vulnerabilities found in 1999 to determine if corrective
    measures were in place. The testing included:

    9	 Analyzing a comprehensive footprint of Internet connections to identify PBGC systems
       connected to the Internet and services running.

    9	 Using stealth penetration tools and techniques to review the effectiveness of PBGC
       intrusion detection, monitoring, and incident response capabilities.

♦   Dial-in penetration testing

    This testing included attempts to gain network access via dial-in systems. The
    penetration team retested the vulnerabilities found in 1999 to determine if corrective
    measures were in place. The team identified and attempted to exploit dial-in access
    points through:

    9	 Using “war-dialer” software to identify modems within the range of the PBGC
       telephone exchanges.

    9	 Using known default accounts, specialized scripts, password guessers, and
       password cracking software to exploit the remote connections identified in the war
       dialing.




                                                -2-

♦   Social engineering testing

    The penetration team scripted social engineering techniques to attempt to gain additional
    system information or generate a desired user action. The objective of the social engineering
    techniques was to test PBGC user security awareness and compliance with organizational
    security policies. The social engineering scenarios used included:

    9	 Calling the Help Desk posing as a computer-illiterate user and asking for the assignment
       of a new password.

    9	 Calling a PBGC user posing as a help-desk employee or systems administrator and
       convincing them to reveal their usernames or passwords.

Phase II: Internal Network Penetration

♦   Physical penetration testing

    The penetration team attempted to gain unauthorized physical access to PBGC systems by
    circumventing or exploiting weaknesses in the physical security protecting network systems
    at PBGC. Our activities were limited to attempts at entering the building through the main
    entrance during business hours; locating open office areas or communications closets. Our
    goal was to gain unchallenged access to PBGC spaces and attempt to connect or log on the
    network through available resources.

♦   Insider penetration testing

    The team performed controlled insider penetration tests, in which we attempted to identify
    vulnerabilities to insider exploitation in order to gain unauthorized access or privileges on
    critical systems and data on the PBGC network. The insider testing evaluated PBGC’s
    defenses against malicious individuals with internal access to PBGC facilities and systems.
    Specific steps included:

    9   Attempting to gain network access without a valid user account.

    9   Performing a detailed search and footprint analysis of internal network paths.

    9	 Conducting systematic attempts to gain unauthorized access and privileges via internal
       and trusted links by exploiting vulnerabilities and network services.

    9	 Analyzing vulnerabilities to exploit by attempting to map network topology; increasing
       level of privileges; obtaining access to password files, e-mail, and other sensitive data;
       and gaining access to other network segments or subnets.

    9   Testing the intrusion detection and incident response actions.


WORK STANDARDS AND LIMITATIONS

         This task was conducted in accordance with the Standards for Consulting Services
established by the American Institute of Certified Public Accountants. Accordingly, in this report,
we provide no opinion or other forms of assurance with respect to the systems reviewed. The
testing provided a view of network security for PBGC at the time of the testing and does not reflect
system conditions into the future. Due to the nature of information systems security, it does not
ensure all vulnerabilities have been identified.




                                                 -3-

PENETRATION TESTING RESULTS

         Our penetration testing found that PBGC significantly improved its security over network
resources to provide protection from malicious external and insider attacks. The testing team
was not able to access PBGC systems via external testing from the Internet or dial-in access
points. Internal network penetration testing, social engineering, and physical security testing
also failed to generate significant access to PBGC’s systems.

♦   Internet Security

        Attempts to penetrate or bypass access controls on the firewall, web servers, and other
Internet systems were unsuccessful. This means we did not gain unauthorized access to PBGC
Internet systems or users’ electronic mail from the Internet.

         Through Internet penetration testing, we identified seven PBGC hosts with one high,
three medium, and three low level vulnerabilities on these hosts. During manual testing of these
vulnerabilities, the team was unable to exploit the high level vulnerability and one of the medium
level vulnerabilities. The remaining identified vulnerabilities, while exploitable, would not allow
an unauthorized user to gain control of the systems.

♦   Dial-In Security

       The penetration team’s attempts to circumvent PBGC dial-in access controls were
unsuccessful. Using a war-dialing program, the team was able to identify five modems in the
PBGC exchange. One of these modems was linked to a non-PBGC organization and the other
four modems appeared to be fax machines. The team was unable to gain access to PBGC
network resources through the five modems.

        The team also attempted to penetrate the PBGC Wide Area Network using dial-in access
points that were compromised during the 1999 testing. None of the modem numbers identified in
1999 were being used by PBGC; some were disconnected, and others were voice lines for non-
PBGC organizations.

♦   Network Security

       Simulating an individual with physical access to the PBGC office spaces, the penetration
team connected to the internal PBGC network and attempted to gain unauthorized access to the
Windows NT, Novell, UNIX, and network devices. Unlike our testing in 1999, we could not:

    9   gain administrator-level access to either the Novell and Windows NT environments,
        though we did gain user-level access by using accounts without passwords or with
        passwords set to the account name (see below);
    9   gain access to PBGC UNIX systems or network devices (routers, switches, etc.); and
    9   gain access to PBGC’s production database applications (Oracle), including the
        Participant Records Information Systems Management System and the Premium
        Accounting System.




                                                -4-

Based on this testing, we found that PBGC improved its network security since 1999, and current
security controls protect critical systems from unauthorized access and abuse originating from
the internal network or from external sources.

    The penetration team, however, did identify the following vulnerabilities:

    9   Novell

        We discovered user-level accounts without passwords and with passwords set to the
        account name on the PBGC Novell Directory Service (NDS). The NDS defines and
        organizes the components of the network -- e.g., users, files, and printers. Through these
        user-level accounts, the team was able to access the PBGC NDS and PBGC Novell
        servers. Additionally, the team was able to explore files and use native Novell programs
        to discover information about key users and servers.

        In addition, the penetration team gained administrator-level access to a contractor-
        operated NDS within the PBGC network using an account without a password. The
        contractor NDS is separate from the main PBGC NDS. This account provided the team
        full access to the PBGC NDS, and would have allowed them to add or delete users and
        modify files. Although the team could not gain access to the PBGC Novell tree using the
        administrator privileges from the contractor-operated NDS, we could read the files in the
        Contractor tree, including those pertaining to PBGC. Although PBGC may not be directly
        responsible for administering the servers on this tree, the supervisor level accounts
        without passwords should immediately be removed or assigned stronger passwords.

    9   Windows NT

        The team was able to identify one user account with the password set to the account
        name on the Windows NT domain. Using this account, the team authenticated to the
        Primary Domain Controller, but could not access files on the system. The team was
        unable to elevate the account’s access to the administrator level.

        The team was able to connect to ten Windows NT systems by using a null connection (no
        username or password). Using common hacker tools from the Internet and commands
        native to the Windows NT operating system, the team was able to extract user and group
        membership information from the systems.

    9   UNIX

        The team found services running on UNIX systems that may not be needed, e.g., “finger”
        and “r “services. Finger and r services are part of the UNIX operating system that provide
        certain information such as users and log-ins. Using these services, the team obtained
        valid user account names. However, the team could not successfully exploit the accounts
        or services to gain access to UNIX systems.

♦   Physical Security

          The team’s physical penetration efforts consisted of attempts to gain unauthorized
physical access to PBGC network systems at 1200 K Street. PBGC’s space is secured through
locked hallway doors leading into office space that are opened by using an individually-assigned
access card. During the physical security penetration testing, our team gained entry to the 10th
floor office space as an employee was exiting. This allowed the team to walk around the floor for
some time before being questioned by a PBGC employee.




                                                -5-

        The team also gained entry by following a PBGC employee into 9th floor office space and
walked around unchallenged for approximately fifteen minutes. During this period, the team
entered an office and successfully logged into the PBGC network from a user’s terminal using
accounts and passwords obtained during the 1999 internal testing.

         As the team was leaving the 9th floor office space, a PBGC employee questioned them
about who they were. The employee stated he was going to call building security. At that point,
the team revealed that they were performing a physical security review for the OIG. The employee
called the OIG contact to validate the team’s claim. The OIG contact informed the employee that
the team was conducting a test and did have authorization from the OIG to be in the building.
The employee did not call building security to have the team escorted from the building.

         Our testing found that although two PBGC employees challenged unauthorized outsiders
and followed escalation procedures, there were many that did not. We also found that the only
written guidance concerning monitoring and reporting unauthorized persons in PBGC space is an
attachment to a 1994 building security memorandum. As a result, PBGC should develop and
publicize guidance regarding employee’s responsibility for monitoring and reporting unauthorized
persons in PBGC space. This will enhance PBGC’s security awareness programs and increase
employee knowledge and vigilance of PBGC physical security policies.

        PBGC has taken steps to secure the Local Area Network (LAN) closets that were accessed
during the 1999 penetration test. A metal strip was installed on the LAN closet doors to prevent
access by means of compromising the lock, as was easily done in 1999. The team also was
unsuccessful at gaining unauthorized access to the main PBGC computer room.

♦   Social Engineering

        The social engineering tests consisted of scripted scenarios that tested user awareness of
and compliance with PBGC security policies and procedures. The penetration team’s efforts
included two scenarios: calling the Help Desk and asking to be assigned a new password, and
contacting a PBGC employee in an attempt to have them reveal their password. During the call
to the Help Desk, the team was informed that in order to have a password reset, a user must go
to the Help Desk window in person, and provide a valid ID. The Help Desk would not reset the
password over the phone. During the calls to PBGC staff members, the team was unable to
persuade PBGC employees to reveal their passwords.


ASSESSMENT OF STRENGTHS

        Comparing our original 1999 testing results to our 2001 penetration re-testing, we noted
improvements in PBGC’s security measures and control elements over information technology,
including the following strengths:

    9	 The Internet firewall configuration blocks unauthorized and unnecessary traffic to the
       PBGC internal network.

    9	 Internet vulnerability scans of the PBGC Web Servers did not identify any significant
       weaknesses.

    9   Attempts to compromise the Internet mail server were not successful.

    9   PBGC dial-in access points could not be compromised.

    9   The intrusion detection system discovered the team’s internal testing attempts.




                                                -6-

  9   Novell servers could not be accessed remotely via the “rconsole” utility.

  9	 UNIX systems require SecurID (tokens for remote log-in and super-user status) for
     authentication and could not be accessed.

  9	 UNIX systems are using secure shell for remote access. This encrypts the network traffic
     to prevent “sniffing” user names and passwords, etc.

  9   Help Desk procedures for password resetting help counter social engineering attempts.

  9   Account lockout was enabled on all PBGC systems and network devices tested.

  9   PBGC routers are not using easily guessed protocols, such as SNMP community strings.


ASSESSMENT OF WEAKNESSES

  9	 PBGC needs to take steps to ensure that every account on the system has strong
     passwords. User level access was obtained on PBGC’s main Windows NT domain and on
     the PBGC Novell tree using accounts with either no password or with the password set to
     the account name. This is a repeat of a1999 finding.

  9	 The team was able to login with administrator-level privileges to the contractor-operated
     Novell Service Directory using an account without a password. It appeared that PBGC
     set up some Novell servers and created an NDS for the contractor. This condition poses a
     risk as an unauthorized individual may use entry to the contractor-operated tree in order
     to gain entry to the PBGC internal network via these Novell servers. Since this was a
     contractor for PBGC, there were files, data, containing information about PBGC on its
     NDS. The penetration team was capable of reading, modifying or deleting this data.
     This data appeared to be sensitive and PBGC should address this issue.

  9	 Unauthorized persons are able to gain access to locked PBGC space and walk around
     unchallenged. While there were indications of some improved employee awareness, there
     were also indications of the continued need for improvement in this area. This was a
     1999 finding.

                                    RECOMMENDATIONS

      Based on the results of our testing, the following actions are recommended:

         Assign strong passwords to user level accounts with null passwords or passwords set
         to the account name in the Windows NT and Novell environment. (IRMD-125)

         Assign strong passwords to administrator level accounts with null passwords on the
         Contractor operated Novell Directory Service tree. (IRMD-126)

         Develop and publicize guidance for employees to monitor and report unauthorized
         personnel in PBGC office areas. (IRMD-127)




                                              -7-

Tab I

